October 25, 2019
Via Electronic Filing and USPS Priority Mail
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Michael Lambert v. Estate of Kevin Brown, by its Successor in Interest Rebecca
Brown, et al.
No. 19-541

To the Clerk of the Court:
We represent Respondents, Estate of Kevin Brown, by and through its successor-in-interest
Rebecca Brown, and Rebecca Brown, in her own right, in the above referenced case. Petitioner Michael
Lambert filed his Petition for Writ of Certiorari on October 21, 2019 and the matter was placed on the
docket on October 25, 2019. Respondents’ brief in opposition to the Petition for Writ of Certiorari is
due on or before November 25, 2019. Pursuant to Rule 30.4 of the United States Supreme Court, we
request a thirty (30) day extension of time to file a brief in opposition to the Petition for Writ of
Certiorari. Because a thirty-day extension of time would mean Respondents’ opposition to the Petition
for Writ of Certiorari would be due on December 25, 2019, a federal legal holiday under 5 U.S.C. §
6103, as set forth in Rule 30.1, Respondents respectfully request a due date of December 26, 2019.
I am counsel of record in this case and am anticipated to begin trial in California Superior Court
on November 18, 2019 that is scheduled to take at least one week. My colleagues and co-counsel, Ms.
Julia Yoo and Ms. Grace Jun, are responding to multiple post-trial motions in another case that are due
to be filed within the first two weeks of November.
For these reasons, we respectfully request a thirty (30) day extension of time, until December 26,
2019 under Rule 30.1, to file a brief in opposition to the Petition for Writ of Certiorari. On today’s date,
Ms. Richardson, counsel for Petitioner Michael Lambert, was informed of Respondents’ request for a
thirty-day extension of time to file an opposition to the Petition for Writ of Certiorari. Ms. Richardson
stated that she had no objection to a thirty-day extension.
Thank you for your attention.
Respectfully submitted,
s/ Eugene Iredale
EUGENE IREDALE
cc: Catherine Richardson (via electronic filing and Priority Mail)

No. 19-541
Michael Lambert v. Estate of Kevin Brown, by its Successor in Interest Rebecca Brown, et al.

AFFIDAVIT OF SERVICE
I, Eugene Iredale, of lawful age, being duly sworn, upon my oath state that I did, on the 25th day
of October, 2019, send out from San Diego, California, one package containing one letter to the Clerk of
the Court pursuant to Rule 30.4 in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:
Catherine Ann Richardson
San Diego City Attorney's office
1200 Third Avenue
Suite 1100
San Diego, CA 92101
Tel: 619-533-5800
Fax: 619-533-5856
Email: crichardson@sandiego.gov
Counsel for Petitioner Michael Lambert
Executed this 25th day of October, 2019, in San Diego, California.
s/ Eugene Iredale
EUGENE IREDALE

